<html>
<title> - BRIDGING THE ENTREPRENEURIAL GAP: ADDRESSING BARRIERS TO SMALL BUSINESS FORMATION AND GROWTH</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   FIELD HEARING IN DEERFIELD, IL: BRIDGING THE ENTREPRENEURIAL GAP: 
       ADDRESSING BARRIERS TO SMALL BUSINESS FORMATION AND GROWTH

=======================================================================

                                 HEARING

                               BEFORE THE

             SUBCOMMITTEE ON AGRICULTURE, ENERGY, AND TRADE

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           DECEMBER 11, 2017

                               __________


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               
                               

            Small Business Committee Document Number 115-050
              Available via the GPO Website: www.fdsys.gov
                   
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-721                     WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0760776847647274736f626b772964686a29">[email&#160;protected]</a>                    
                   
                   
             
                   
                   
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                      RALPH NORMAN, South Carolina
                           JOHN CURTIS, Utah
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Rod Blum....................................................     1
Hon. Brad Schneider..............................................     1

                               WITNESSES

Mr. Steven Whittington, Founder and Chief Executive Officer, 
  LifeWorking Enterprise, LLC, Lake Forest, IL...................     5
Ms. Meg Barnhart, Founder and Co-Creator, The Zen of Slow 
  Cooking, Lake Forest, IL.......................................     9
Mr. David Borris, Owner, Hel's Kitchen Catering, Northbrook, IL..    11
Ms. Cheryl Besenjak, Partner, Grow Well Farms, LLC, Hoffman 
  Estates, IL....................................................    13

                                APPENDIX

Prepared Statements:
    Mr. Steven Whittington, Founder and Chief Executive Officer, 
      LifeWorking Enterprise, LLC, Lake Forest, IL...............    29
    Ms. Meg Barnhart, Founder and Co-Creator, The Zen of Slow 
      Cooking, Lake Forest, IL...................................    34
    Mr. David Borris, Owner, Hel's Kitchen Catering, Northbrook, 
      IL.........................................................    37
    Ms. Cheryl Besenjak, Partner, Grow Well Farms, LLC, Hoffman 
      Estates, IL................................................    41
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
BRIDGING THE ENTREPRENEURIAL GAP: ADDRESSING BARRIERS TO SMALL BUSINESS 
                          FORMATION AND GROWTH

                              ----------                              


                       MONDAY, DECEMBER 11, 2017

                  House of Representatives,
               Committee on Small Business,
     Subcommittee on Agriculture, Energy, and Trade
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:36 a.m., in 
Room 209, Village Hall, 850 Waukegan Road, Deerfield, IL, Hon. 
Rod Blum [chairman of the Subcommittee] presiding.
    Present: Representatives Blum [presiding] and Schneider.
    Chairman BLUM. Good morning. Thanks for being here today. I 
call this meeting to order.
    Before we begin, I want to thank Mr. Schneider for letting 
me meet with him in his district to hear from his constituents 
today, and what a lovely district it is. We rode around for 20, 
25 minutes this morning, a beautiful area.
    We will talk to our witnesses today. I am looking forward 
to hearing your testimony as well. We are glad that you are 
here today.
    Brad and I may be members of different political parties. 
Were you aware of that?
    Mr. SCHNEIDER. I did not know.
    [Laughter.]
    Chairman BLUM. We are both proud Midwesterners and work in 
a bipartisan manner on our Committee for the owners and 
employees of America's small companies.
    Back in Washington, there is a lot of discussion about the 
plight of the entrepreneur. We hold hearings, roundtables, 
write legislation, hear from trade associations as to how best 
to create an environment to spur entrepreneurship.
    At the same time, Washington is also the prime source of 
unnecessary burdens on small businesses and entrepreneurs. It 
is where regulations are created that put unnecessary burdens 
on small businesses in my district in Iowa, in Brad's district 
here in Illinois and across this country.
    Regulations are one of the top concerns of small businesses 
and entrepreneurs in the United States. Entrepreneurship, 
sadly, has declined by almost 50 percent since the late 1970s, 
and regulations have been a major contributor to this.
    Today we will hear from small business owners that have 
overcome the obstacles, beat the odds, taken the risks and 
initiative to start their own businesses. I want to hear about 
your concerns, what changes you would like to see in order to 
reduce the regulatory burden and the Federal paperwork burden, 
and how we can serve you in Washington, D.C.
    Again, I appreciate the Ranking Member for his hospitality, 
and the witnesses for taking time away from their businesses to 
be here today. I look forward to your testimony.
    I now yield to the Ranking Member for his opening remarks.
    Mr. SCHNEIDER. Thank you, Mr. Blum. Thank you for joining 
us, and welcome to not just Illinois but to Deerfield, my home.
    I want to thank everyone for joining us today for this very 
important hearing on bridging the entrepreneurial gap. I am 
very glad to have you here.
    Before we begin, I want to thank the Village of Deerfield 
for hosting us this morning in their facilities. I want to 
thank our witnesses for making the time to first prepare for 
today and then for being here today to share your perspectives.
    I want to thank my team, Mr. Blum's team, and the Committee 
staff for working so effectively to make this hearing happen 
today. It is not easy to bring a hearing from Washington out to 
the field, so they worked very hard to make this happen. Again, 
thank you.
    Once again, I want to thank all of you for joining us.
    I greatly appreciate this opportunity provided by the House 
Small Business Committee to hear directly from entrepreneurs 
and small business owners who are actively engaged in our 
community and our national economy.
    Today we are here to talk about the experiences and 
opportunities and challenges they and other entrepreneurs 
confront in starting and growing their businesses. Hopefully we 
can also explore ideas for creating more opportunities and 
smoother pathways for future entrepreneurs.
    Between World War II and 2008, in every economic recovery 
following a recession, it has been entrepreneurs who have set 
the economy in motion through their ability to create new 
markets, promote innovation, and stimulate every industry. It 
has been startups and small businesses that lead the way.
    Entrepreneurship has long been the cornerstone of our 
economy, and a vibrant entrepreneurship culture is necessary 
for the United States to enjoy continued economic prosperity.
    But this last recovery was different. Small businesses and 
new startups lag the broader economy. In fact, in recent years 
we have seen a dramatic decline in entrepreneurship, with a low 
in 2014 of just 450,000 new businesses starting up. The decline 
can be attributed to many variables, like access to capital. 
Lack of capital remains an ongoing problem for all 
entrepreneurs. The problem is particularly pronounced for women 
and minorities, as well as veterans. These disparities come 
with significant costs to our economy. We are losing out on 
millions of jobs that could be created by these new firms.
    In addition, small business operators can also lack access 
to information and education. The Small Business Administration 
is one important resource to help small businesses overcome 
this barrier.
    For example, entrepreneurship education within the SBA 
provides resources such as growth assistance, financial 
literacy education, and information for young entrepreneurs. I 
was pleased that my amendment to increase funding for 
entrepreneurial education programs within the SBA by $4 million 
was passed by the House of Representatives. This helps ensure 
that the United States remains the best place in the world to 
start and grow a business.
    Another important resource for small business entrepreneurs 
are small business accelerators and incubators, which offer 
resources that many small businesses lack such as office space, 
access to professional services such as legal expertise and 
important guidance.
    That is why I was happy to introduce the Accelerator 
Startup which would create a grant program to provide funding 
for small business accelerators and incubators particularly 
outside of traditional markets that currently dominate startup 
activity.
    Let me take a pause to welcome Michael Edgar, who is 
working with the Greater Waukegan Development incubator in a 
community just like what we are trying to target.
    As small businesses face these challenges, they also have a 
hard time getting the funding they need to adequately address 
the threats from cyber attack. That is why the bipartisan 
legislation such as I introduced with Representative Bryant 
would create a loan guarantee program to allow small businesses 
to purchase the necessary technology and services to protect 
their businesses. This is an important step while providing 
more access to capital for struggling small businesses.
    In addition, entrepreneurs are the key to renewed growth in 
local communities in the economy as a whole. Currently, this 
sector is experiencing growth as more immigrant entrepreneurs 
start businesses. That is why it is so important that we pass 
immigration reform. We should be advancing strategies to draw 
on innovation, hard work, and the entrepreneurial spirit, not 
creating barriers for these people to achieve their dreams.
    Similarly, we should not create additional challenges for 
small businesses through much-needed tax reform. We absolutely 
must reform our outdated and overly-complex tax code, but the 
current tax hike being considered in Congress hurts our small 
businesses and saddles future generations with trillions more 
in debt.
    In Congress, it is our job to ensure that those with the 
entrepreneurial spirit and dedication to succeed have access to 
these and other vital resources. This includes providing access 
to capital, reforming our tax code in a fair and bipartisan 
way, and helping to promote research and innovation. These 
efforts and others will allow small businesses to prosper and 
ultimately create jobs.
    This hearing gives us the opportunity to hear from business 
founders regarding their experiences in starting a business and 
the challenges they overcame to become successful. It will give 
the committee insights into areas of achievement, as well as 
areas where entrepreneurs still face the greatest obstacles.
    In that regard, I want to again thank the witnesses for 
their participation and insights. I want to again thank the 
Chairman for allowing us to do this here. And with that, 
Chairman, I would yield back.
    Chairman BLUM. Thank you, Mr. Schneider. I must say, Brad, 
that this facility is much nicer than where we hold our Small 
Business Committee hearings in Washington, D.C.
    [Laughter.]
    I would like to take a moment to explain the timing lights 
for our witnesses. You have 5 minutes each to deliver your 
testimony. The light right there will start out as green. When 
you have 1 minute remaining it will turn to--guess what?--
yellow. And when your 5 minutes is up, it will turn red. We ask 
that you try to adhere to that time limit.
    I will now yield to Ranking Member Schneider to introduce 
this morning's witnesses.
    Mr. SCHNEIDER. Thank you. It is my pleasure to introduce 
our first witness, Mr. Steven Whittington, the Founder and CEO 
of LifeWorking Enterprise, an office space for freelancers, 
entrepreneurs, and small businesses to work collaboratively and 
productively.
    In addition to running the business, he is a board member 
of the Lake Forest Chamber of Commerce. Prior to working at 
LifeWorking, he worked for Proctor & Gamble for more than 20 
years. Steve is also a United States Army and Ohio National 
Guard veteran who got his Bachelor of Science from the Ohio 
State University and the Institute of Technology. And according 
to my homework right here, his daughter is going to----
    Mr. WHITTINGTON. She was just accepted, yes.
    Mr. SCHNEIDER. Welcome, Mr. Whittington.
    Mr. WHITTINGTON. Thank you.
    Mr. SCHNEIDER. Our second witness today is Meg Barnhart, 
Founder and Co-Creator of The Zen of Slow Cooking. The company 
sells slow cookers and spice blends online through Whole Foods 
stores. In 2017, The Zen of Slow Cooking won the Sophie Award 
for best new product in seasonings. This is like the Academy 
Awards of food.
    Ms. BARNHART. Like winning an Oscar.
    Mr. SCHNEIDER. She won in the spice category and for her 
work for creating employment for adults with developmental 
disabilities. Thank you for your leadership in this area.
    Before founding The Zen of Slow Cooking, Meg worked in the 
hospitality business and started her own event planning 
business. As a passionate advocate for children with learning 
disabilities, Meg served as the President of the Lake Forest 
Learning Disabilities Association.
    We are pleased to have you here, Ms. Barnhart.
    Our third witness is Mr. David Borris. Mr. Borris, of Hel's 
Kitchen Catering in Illinois, is testifying. He started Hel's 
Kitchen almost 33 years ago, in 1985, with his wife Terry. It 
is a small homemade food store in Highland Park. Over the years 
they expanded it into a full-service catering business, 
employing 33 full-time and over 80 part-time seasonal 
employees. In addition to working with Hel's Kitchen Catering, 
David has been a leader with the Mainstream Alliance since 
2008.
    I am glad to have Mr. Borris here. Thank you for joining 
us.
    Our final witness today is Ms. Cheryl Besenjak. Did I get 
that right?
    Ms. BESENJAK. Besenjak.
    Mr. SCHNEIDER. Besenjak. I always get it wrong.
    She is the Executive Director of Growing Healthy People, an 
Illinois not-for-profit corporation. She is a Managing Partner 
of Grow Well Farms, LLC. The company recognizes the need for 
new farmers over the next 10 years and is taking steps to hire 
veterans to fill this gap.
    Before starting her current venture, Cheryl had a career as 
a copyright permissions publishing professional. She founded 
the Permissions Group, a premiere copyright consulting company.
    Ms. Besenjak also served our country in the Air Force 
Reserves. Thank you for your service.
    Welcome, Ms. Besenjak.
    And with that, I turn it back over to you, Mr. Chairman.
    Chairman BLUM. Thank you very much, Brad.
    Mr. Whittington, you are recognized for 5 minutes. I would 
like to remind you before you start that the University of Iowa 
beat the Ohio State University----
    [Laughter.]
    They do get to go to the championship----
    [Laughter.]
    You are recognized for 5 minutes.

 STATEMENTS OF STEVEN WHITTINGTON, FOUNDER AND CHIEF EXECUTIVE 
  OFFICER, LIFEWORKING ENTERPRISE, LLC, LAKE FOREST, IL; MEG 
BARNHART, FOUNDER AND CO-CREATOR, THE ZEN OF SLOW COOKING, LAKE 
   FOREST, IL; DAVID BORRIS, OWNER, HEL'S KITCHEN CATERING, 
NORTHBROOK, IL; CHERYL BESENJAK, PARTNER, GROW WELL FARMS, LLC, 
                      HOFFMAN ESTATES, IL

                STATEMENT OF STEVEN WHITTINGTON

    Mr. WHITTINGTON. Good morning, Representatives Schneider, 
Blum, staff, and audience members. I want to thank the U.S. 
House of Representatives Small Business Committee for this 
opportunity to speak and share my experience and perspective on 
issues regarding small business formation and growth.
    Again, my name is Steve Whittington, and I am the Founder 
and CEO of LifeWorking Enterprise. I am a United States Army 
and Ohio National Guard veteran, a 20-plus year veteran of 
Procter and Gamble and, yes, a graduate of the Ohio State 
University.
    Melinda, my wife and fellow ``Proctoid'', and my daughter 
Jennifer, a senior at Lake Forest High School and a future 
Buckeye, are residents of Lake Bluff, Illinois since 2014.
    I also sit on the board of the Lake Forest/Lake Bluff 
Chamber of Commerce and on the executive board of Love Inc. of 
Lake County, a faith-based non-profit based in Waukegan, 
Illinois.
    LifeWorking Enterprise, marketed and branded as LifeWorking 
Coworking, is a shared, community, new-way-to-work place. Our 
first, but not last, location is in Lake Forest, Illinois, only 
15 minutes north of here. We are a diverse community of 
freelancers, entrepreneurs, creatives, non-profits, small 
business and corporate remote workers that value the increased 
productivity, energy, lack of distractions, and collaboration 
that a professional co-working place provides.
    In addressing this topic today, I would like to start with 
a view of the current business landscape, forming from my 
startup experience and evolving with my involvement with 
several area Chambers of Commerce.
    For my business, I have found it critical to understand who 
is doing the work from a generational perspective. As you 
likely know, the millennial workforce, defined as those born 
between 1982 and 2004, are the largest percentage of the 
current workforce and are well-documented as valuing 
flexibility, working for purpose, and willing to choose work-
life integration over a bigger paycheck.
    Less discussed is the contingent workforce. These are the 
temporary workers, 1099s, post-corporates, freelancers, and 
moonlighters that are currently estimated by the U.S. Bureau of 
Labor Statistics to be over 30 percent of the workforce, and 
will grow to 40 percent by 2020. A significant percentage of 
this workforce are GenX-ers and Boomers that actually have a 
very similar perspective to their millennial counterparts.
    At LifeWorking Coworking, who are these contingents? They 
are an ex-Allstate employee teaming up with his life partner to 
create a workplace safety and self-defense startup, an ex-
Walgreen's executive leveraging his operational expertise with 
a call-center startup, and an ex-Shire employee who joined a 
startup focused on helping academic Ph.D.s transition to non-
academic careers.
    Pivoting to challenges in the small business environment, 
it is well-documented and shared with this Committee in 
previous hearings that small businesses, those with less than 
500 employees, represent over 99 percent of employer firms and 
account for half of the jobs in the private sector. Impacting 
this group directly moves the needle in either direction, and 
this group is being impacted.
    Early data for cyber Monday 2017 by Adobe Analytics 
indicate that, collectively, shoppers spent almost $3.4 billion 
on online purchases, a 17 percent increase over last year. 
Looking at the underlying data, over 50 percent of the virtual 
store visits and 40 percent of the revenue were made from 
tablets or smartphones, an increase of 20 percent and 41 
percent respectively over last year. This could indicate that 
the online shopping experience is becoming more frictionless 
and shoppers are feeling more secure with online transactions.
    As a Chamber of Commerce member, you see how the nature of 
online engagement is not only challenging the relevance of 
small retail but the relevance of the Chamber itself. What is 
the equity of the Chamber when Google, community Facebook 
groups, and NextDoor.com are now your go-to's, when technology 
and a workforce that embraces mobility and immediacy is 
transforming social interaction and consumerism so 
dramatically? Even the name is archaic.
    In recognition of the need to transform, in April 2015 the 
Association of Chambers of Commerce Executives launched the 
``Horizon Initiative: Chambers 2025,'' an initiative to drive 
relevance and transformation of the Chamber of Commerce as we 
know it today. The outcome of this initiative was the 
definition of eight influences that Chambers should consider, 
including globalization impacts, population shift, technology, 
and leadership at the community level.
    Interestingly, and relevant to this discussion, is a ninth 
influence added this year entitled ``Limitations of 
Government.'' This influence speaks to a perception of the 
inadequacy or inefficiency of government at all levels that 
inhibits the ability of the Chambers to change. Objectively, 
you would rightly say that an organization that is pre-
transformational likely looks more outwardly versus inwardly to 
find the problem. However, we all know as small businesses that 
you have to deal with the perception, real or not.
    Turning to barriers to small business formation--and I'm 
talking quickly--for me, this begs the question: How do you 
take the first step in launching your own business in whatever 
form it may take? And then, when you have done that, how do you 
ensure that you are there on day 366, 731, et cetera, et 
cetera?
    With regard to starting a small business, the first 
question is what risks must I consider for me to take this 
jump? There are three things to consider.
    Access to capital is an easy starting point and well 
discussed in previous Small Business Committee hearings. The 
ability to source capital if you are not well collateralized, 
if you don't have the trusted relationships to advise you 
towards appropriate, non-predatory sources and, frankly, to 
share the risk, there will continue to be a barrier to entry 
or, worse, an increasing failure rate of small business 
startups.
    Secondly, healthcare. As I have had the opportunity to talk 
to people that are considering starting their own businesses 
and from my own consideration, before you can chase your 
professional passion, you must consider the personal risk.
    While not the only risk, one of the most important and, 
frankly, most uncertain today is healthcare. The specter of 
healthcare costs, especially to a contingent worker that is 
more likely considering it for family, could be significant 
enough to stymie an entrepreneurial startup and, if not, haunt 
that startup as it operates and grows.
    Finally, fear of the unknown, which is not unfounded based 
on small business failure rates. The questions start to fly: 
How do I get started? How will my business make money? How do I 
get customers? Where am I going to work? These can be crippling 
non-starters without access to industry expertise, trusted 
advisors, and help that is do-focused and not tell-focused.
    Switching to barriers to growth or what I call ``sometimes 
you get what you ask for,'' I think that there are several key 
barriers beyond the obvious access to operational and strategic 
capital.
    The first is lack of resources. Whether creating from your 
home or your storefront, you quickly figure out what you don't 
have, simple business services like copies, posters, business 
cards that need to be more professional than your design skills 
and home printer will allow; discovering that a website doesn't 
actually create itself; or venturing into the marketing realm 
and realizing that digital marketing and social media aren't 
the same thing and that search engine optimization is evil, or 
it is not; Facebook ads are better than boosted posts, or they 
are not; and no one looks at Google+ on social media, but you 
better have an account for your business?
    A second is working in your business versus on your 
business. As a small business, you quickly discover that in 
many cases time is a commodity that rises above dollars in 
importance. A day ends, and you have succeeded in changing the 
toilet paper in the bathrooms, replaced the toner cartridge 
after two store visits, watched six promotional videos, each 
touting how their email marketing solution will be the first 
step to immortality and, if you are at home, you have done two 
loads of laundry and broken into the holiday cookies at least 
10 times.
    So where is the opportunity? I believe that an effective 
way to positively impact the formation, growth, and 
transformation of small business is in the communities in which 
they reside.
    The demise of the suburban community is a myth. If you are 
paying attention, you will see the press presenting about as 
many stories of generational and commercial suburban flight as 
you will see escaping the urban centers for the new rockin' 
suburban oases. The reality is that communities focused on 
economic business development, urbanizing with respect to 
amenities, walkability and transit-oriented development are and 
will thrive.
    Suburban communities are themselves set up to be incubators 
with human resources across the generational spectrum bringing 
energy, skills, scars, insight and wisdom that are considerate 
of both work and life. Networks are strong. The coffee shops 
are a great indicator. In the city, coffee shops are humming, 
lots of transactions and folks with headphones getting work 
done. In the community coffee shops, you see groups of yoga 
pants, blue-hairs, elder statesmen, book clubs, biking clubs, 
et cetera.
    What will need to be true is that in the community Chambers 
of Commerce, economic business development, and the 
municipalities themselves must get out of their own way and 
work together in partnerships that drive this transformation.
    An integral component of such partnerships will be private 
entities like LifeWorking Coworking, not solely incubators or 
accelerators as currently defined, but catalysts in the 
community providing a place for like-minded, complementary 
businesses and non-profits to collaborate, learn more quickly 
in an energizing and creative environment, and ultimately 
figure out how to make 1 plus 1 equal 3, and punch much bigger 
than their own weight.
    So, what does help look like? I believe that success or 
failure will be the result of efforts and interventions and 
partnerships at the municipality level, including local 
government, non-profits, and private enterprises. For this 
Committee, however, I believe that there are several important 
considerations.
    Healthcare for small business should be a continued focus, 
supporting creative healthcare solutions for small businesses, 
especially those below 50 employees, solutions like association 
healthcare and/or group captive options that allow access to 
the same kinds of benefits as larger enterprises while 
mitigating some of the risk.
    With respect to local government and municipalities, 
minimizing unnecessary regulation while incenting 
municipalities, economic development commissions, and key non-
profits like Chambers of Commerce to better partner and 
transform to ease the entry into business for entrepreneurs, 
drive sustainability, and catalyze growth.
    Finally, enabling and incenting community public-private 
partnerships that provide workplaces that drive productivity, 
collaboration, and community, much like Chicago's own 1871, the 
internationally recognized incubator/accelerator that has been 
the genesis of well-known startups and spun off similar 
entities like the veteran-focused Bunker Labs and the 
internationally recognized healthcare incubator Matter Chicago.
    In closing, I believe that in today's environment the 
potential for small business expansion and growth is strong and 
discussion doesn't need to focus on threats but opportunities. 
I also believe that, as is typically the case, the majority of 
our collective focus should be less about what we don't have 
and a lot more about what we can do together, mixed with just a 
little bit of Robert Fulgham's perspective that ``All I really 
need to know, I learned in kindergarten.''
    Thank you very much.
    [Applause.]
    Chairman BLUM. Thank you, Mr. Whittington.
    Ms. Barnhart, you are now recognized for 5 minutes.

                   STATEMENT OF MEG BARNHART

    Ms. BARNHART. Thank you both for giving me an opportunity 
to shine a light on my business, but also the social part of my 
business, my social enterprise.
    Can you all hear me? You can't hear me?
    How about now? Can you hear me now? Okay, awesome.
    The origin of my business, The Zen of Slow Cooking, began 
many years ago, and is really captured in this picture, which 
is my three children. I had a very un-Zen-like life when they 
were little.
    Chairman BLUM. Show it the other way, too.
    Ms. BARNHART. And my middle son was diagnosed as 
developmentally delayed and didn't have language until he was 
4. So, as you can imagine, when we got to school it was very 
challenging, and I found myself struggling to get food on the 
table. I called my best friend and said, ``What do I do? Tell 
me what to do, I will do anything.'' She said, ``You are not a 
failure. Get off the phone and buy a crockpot.'' So that is 
what the genesis of my business is.
    I understood the first two pieces of advice, but not the 
third. I did not grow up with a slow cooker, but I went out and 
got one and fell in love with this little device. It gave me 
the opportunity to recreate my childhood from scratch at dinner 
hour as I experienced it as a child. It also gave me the 
opportunity in the afternoon to help my children with homework 
and take them for walks and what not.
    I cooked steadily with my slow cooker until my daughter 
started crying two years into it, saying she couldn't eat any 
more thick meat, because all I knew how to make was pot roast 
and chili, so I knew I had to step it up. By then I understood 
the science behind it, and my food actually got quite good.
    Fast-forward to 2010, I decided to spend a year studying 
what life would look like for my son when he aged out of the 
system, and I found in Illinois only 24.5 percent of adults 
with cognitive challenges and 36.5 percent with physical 
challenges were employed. You have met my son Doug, both of 
you, and I couldn't imagine a life where he wasn't shining his 
life, an unbelievably wonderful guy. So I decided to create a 
business forum for other adults like him.
    So I shared my vision with a friend and said I know this is 
my calling in life, but I am not sure what to do. And she said, 
``What are you having fun with?'' I laughed and said I was sort 
of having fun with this slow cooking. I used my prep time as a 
quiet time in my day, and she said do something with that. So 
that is where the idea for The Zen of Slow Cooking came. It 
took me another year to find someone to help me kick it off the 
ground. I found a young mom who was doing some food writing, 
had just moved from the U.K., and we co-created The Zen of Slow 
Cooking food blog in 2012. And then using our most popular 
recipes, we created a line of premium spice blends exclusively 
for the slow cooker. I brought them to the Lake Forest farmer's 
market, and we began patching up these little tins and we just 
sold them. We were so excited that first day when we sold out 
of all these tins, until we realized we were going to have to 
blend 40 more for the next week.
    We blended and sold, blended and sold in different markets, 
and then in 2014 we had a lot of our clients asking for us to 
sell them to their friends out of state. So we left our home 
kitchens and went to a test kitchen, and that is when we 
started our partnership with Planet Access Company. It is a 
social enterprise corporation and provides training and 
employment for adults with disabilities.
    Each week my partner would blend the spices. I would pick 
them up, run them up to Waukegan, where they would get hand-
packed. I would take them to the stores and sell them, or 
online market, and we did that. In 2015 we opened our first 
wholesale account, and we also had the good fortune of 
interviewing with Whole Foods, and they loved us. They asked us 
to come on board, but they said you have to change your 
packaging, so we changed it to this very nice merchandisable 
packaging and brought it to their markets.
    So we started with three Whole Foods in 2016. We were also 
finalists for ``Chicago's Next Best Food Product,'' which led 
to a meal kit with the online grocery retailer called Peapod. 
And then in 2017 we are now in 50 stores, working our way 
through the Whole Foods market in Northern California and 
Oregon. Our meal kits have now expanded from Chicago to five 
states on the East Coast. And, as you learned, we won for best 
new spice product, which was very exciting. And we also became 
a Certified B Corporation, which I will share a little bit of 
that. We are very excited.
    And in addition to our for-profit business, we also teach 
cooking classes for adults with disabilities. We provide 
services to underserved populations, veterans, other people 
really could use this tool.
    And then in conclusion, where could I see the government 
really helping us? As my representative knows, I am not a fan 
of huge government, but I am a big fan of entrepreneurs and 
creative governing. I call it conscious governing. I am a big 
proponent of conscious capitalism.
    So I think helping our social enterprise, Planet Access, 
would be an awesome way to begin. They have a fabulous model 
where they have supported employment for adults with really 
compromised disabilities, who then move into competitive wages 
in the warehouse, and then they move out to the community as 
they are able to, which I think is really innovative. They need 
help with job coaches, resources. So many of my food artisan 
friends are now packaging with them, and they need bigger 
facilities. They are a great, great organization.
    Another one would be the FDA. Is there a way we can create 
online templates, things that are more simple for the small 
entrepreneur. There are so many changes in compliance. We had 
to pay someone $2,000 just to look over our new labels. While 
that may not be difficult for a large company, for us it is 
quite an expense. So is there something we can do about a 
designer.
    I guess a third thing would be incubators, as my 
representative talked about. They are huge. We were in a small 
business incubator, the second one in Lake Forest. That gave us 
access directly to a consultant with the Small Business 
Administration and helped with our first business plan. We are 
also part of a big incubator in Chicago called The Hatchery. I 
can go to classes for as little as $15, and it is great for all 
small business entrepreneurs.
    And my fourth one would be to recognize what is existing 
right now. I don't know if you are familiar with B Corp. It is 
a movement started in 2007. It is a very rigorous certification 
to go through. It was difficult for us to get through it. We 
have a small business. I highly recommend the government look 
into B Corp. They already have a great certification process 
encouraging all businesses to measure their social, 
environmental, and economic impact. It is four for-profit 
businesses. I would also consider the government using it as an 
assessment if you want to create early-stage access to capital. 
These are all companies that are not only going to be making 
money but also making the world better. So I would highly 
recommend looking at that.
    Anyway, thank you for your time. I appreciate it.
    [Applause.]
    VOICE. I could not hear. If I may, would you please repeat 
what kind of corporation you are talking about? You said----
    Ms. BARNHART. The last one?
    VOICE. Yes. B Corp?
    Ms. BARNHART. It is called B Corp. There are about 2,500 in 
the world, started by the founder of Patagonia, and it is for 
companies who are for-profit businesses who measure themselves 
in terms of their employees, how they are paying their wages. I 
had to do a whole environmental study. It is a great, great 
place to look.
    Chairman BLUM. Mr. Borris, you are now recognized for 5 
minutes.

                   STATEMENT OF DAVID BORRIS

    Mr. BORRIS. Thanks. Representative Schneider, 
Representative Blum, thanks for the invitation to testify 
today. My name is David Borris and, as Brad said, I serve on 
the Executive Committee of the Main Street Alliance, a national 
network of over 30,000 small business owners. I have been a 
small business owner for 32 years.
    In order for small businesses to thrive in the 21st Century 
marketplace, we need access to capital to start and grow our 
businesses, vibrant local economies which create strong and 
sustainable consumer demand, and a resilient workforce. Today, 
I will focus on what Washington can do to ensure that these 
basic vital conditions are met so new and current entrepreneurs 
like me can succeed.
    Small businesses are responsible for 49 percent of all 
private-sector employment and 63 percent of all new private-
sector job growth. Despite this critical role, many small 
business owners face challenges accessing capital to start and 
expand their businesses. The share of total bank loans, as will 
be discussed momentarily, going to small business decreased 
from 50 percent in 1995 to 30 percent in 2012. Since the 
financial crisis, small business bank loans have decreased by 
20 percent, while loans to larger businesses have increased 
over the same period. We need to fix that.
    There is no current requirement right now to collect data 
on credit application and terms. Public information on the 
availability of credit to small businesses is inconsistent and 
incomplete, and robust data is needed to provide a complete and 
accurate picture of the small business lending marketplace.
    Another thing that businesses like mine require from our 
government are evidence-based policies to keep overall consumer 
demand strong. The single most important thing I need to be 
successful and create more jobs is more customers, not tax 
breaks, not fewer regulations, customers. The strength of my 
business is tied to a healthy local economy that has money 
circulating in a virtuous cycle of rising wages, consumer 
demand, and job creation.
    The recently passed House and Senate tax bills would 
explode Federal deficits by $1.5 trillion over the next 10 
years in order to give tax cuts to the country's wealthiest 
households and large, profitable corporations. These higher 
deficits will undoubtedly result in deep spending cuts to 
Medicare, Medicaid, education, infrastructure, and other vital 
services. As families are forced to pay more out-of-pocket for 
those vital services, they will have less disposable income, 
meaning small business owners like me will see a decline in 
sales.
    According to the Joint Committee on Taxation and the CBO, 
families earning $40,000 to $50,000 a year will pay a combined 
$5.3 billion more in taxes over the next 10 years, while those 
making $1 million or more would get a $5.8 billion tax cut. 
This will devastate small business sales.
    Another way to increase consumer demand is by raising the 
Federal minimum wage. In our local economies, my fairly-paid 
employee is my neighbor's paying customer. When people in my 
neighborhood can't earn enough to keep up with the basics--
things like buying food, obtaining school supplies, or making 
car repairs--the entire local economy threatens to become 
unstable. It is bad for small business and bad for the economy 
as a whole.
    In addition to wages, the success of my business is also 
tied to ensuring that my employees, my family, and I can access 
quality, affordable health coverage. Hel's Kitchen began 
offering health care in 1992 as we felt a moral obligation to 
do right by the people who are making our life's work theirs as 
well. Beginning around 2002, though, we began to experience a 
series of annual, often volatile premium increases, forcing us 
to finally ask long-time employees to reach into their pockets 
to contribute more to their premiums, further reducing their 
disposal income. The ACA came along and helped stabilize these 
costs as insurance could no longer underwrite based on health 
status and must adhere to minimum medical loss ratios. My 
company has witnessed an unprecedented slowdown in rate 
increases since then.
    Since the passage of the ACA, our average annual increases 
are a fraction of what they were before, averaging 4.6 percent 
over the past seven years, allowing me to put those savings to 
work through business investment and job creation.
    Finally, sensible comprehensive immigration reform is 
critical for an inclusive, healthy middle class. In the 10th 
Congressional District alone, there are over 172,000 immigrant 
residents paying $1.7 billion in taxes and spending over $4.5 
billion into this economy. Since 2012, the DACA initiative has 
provided 800,000 immigrant youth with temporary protection from 
deportation and renewable work permits. Eighty-seven percent of 
DACA recipients are currently employed, many in small 
businesses. Ending DACA would cause these businesses to incur 
$3.4 billion or more in turnover costs.
    DACA has also had a significant positive impact on wages. 
As people get out of the closet, the average hourly wage of 
recipients covered by DACA increased by 69 percent after they 
received DACA. As DACA workers earned higher wages, they 
purchased more goods and services through small businesses and 
fueled economic growth. Without DACA, U.S. GDP is likely to 
shrink by $433 billion over the next 10 years.
    On behalf of the thousands of Main Street small business 
owners we represent, we urge you to pass the Dream Act into law 
now.
    In closing, I believe the role of Washington is to create 
the basic market conditions that allow small businesses like 
mine to thrive and compete on a level playing field with our 
larger competitors. Access to capital, affordable and quality 
health care, policies that fuel a strong middle class and a 
strong workforce, that is the recipe for small business 
success.
    Thanks again for the opportunity to testify.
    [Applause.]
    Chairman BLUM. Thank you, Mr. Borris.
    Ms. Besenjak, you are recognized for 5 minutes.

                  STATEMENT OF CHERYL BESENJAK

    Ms. BESENJAK. Thank you. Good morning to Congressman 
Schneider and also Chairman Blum, and everyone else here today. 
I am excited to be here to talk about my entrepreneurial 
experiences and hopefully find some answers for questions I 
might have, but then also maybe find some ways that we have 
created our business that might prove helpful for others.
    My name is Cheryl Besenjak, and I am currently the 
Executive Director of Growing Healthy People Not For Profit, 
and a managing partner of the for-profit enterprise Grow Well 
Farms LLC.
    I have always had an entrepreneurial spirit, and I have 
always asked questions like, well, what if, or why not, and how 
can I meet a need? For example, in 1990 when I decided to leave 
my job in educational publishing to stay home to raise my 
newborn daughter, I sent out 40 resumes outlining my experience 
and offering my services as a copyright and permissions 
consultant to publishers around the country. From that one 
mailing, The Permissions Group, or TPG, was launched. It 
started around my dining room table, and TPG met a need for 
publishers.
    Quickly I started adding staff who were mostly stay-at-home 
moms who wanted to work while their children were in school. 
And so we would set the timer on my oven to let us know when we 
had to end for the day so we could go meet the buses. This met 
another need, obviously, in the workforce. I am really proud 
and excited to say that TPG is still serving publishers today. 
And when I thought about it, since 1990 to 2017, that is like 
27 years. It is still in existence, and one of my first staff 
members bought TPG from me in 2005 when I wanted to move on to 
other ventures. So I was excited that it is still serving 
today.
    Fast forward to 2013. For nearly a decade I had been 
developing my passion for growing food for those in need, 
installing gardens around the food desert in south Waukegan and 
teaching students of all ages how to grow food. I was thrilled 
to bring harvests to food pantries and a free farmer's market 
in Waukegan. I loved sharing my passion with others. I thought 
a natural next step would be to find ways to create jobs, 
especially in the low-income area.
    When I read an article titled ``A Battle Worth Fighting'' 
in one of my favorite magazines, Organic Gardening, I knew I 
had my next calling. The article explained that, according to 
the USDA, there was a need for a million new farmers over 10 
years because all of our farmers were aging out. So, of course, 
I say what if, or why not, or how can I be a part of that? That 
was very exciting. They said that especially veterans returning 
from war could be the answer because they had skills and the 
desire for a new mission, and creating food could be very 
healing for those who have seen and experienced death and 
destruction. I am a Vietnam-era Air Force veteran, I love to 
grow food, and I want to grow farmers. That seemed like a 
perfect match.
    So there was a group of us that started Growing Healthy 
People. One of the new members of our group was Kevin Westing. 
He is a remodeler/construction guy with knowledge of plants and 
gardening and a passion for raising fish. It wasn't long before 
Kevin and I became Growing Healthy People and then started our 
partnership, which is Grow Well Farms.
    Kevin and I were particularly interested in indoor farming. 
I had seen that at Disney World many years before and had said, 
wow, if you can grow indoors all year round, the farmer's 
markets don't end--I mean, you still eat after they end in 
October. So we had been using alternative growing methods like 
hydroponics and aquaponics, which combines hydroponics with 
aquaculture raising of fish. So that is why Kevin and I have 
really come together well.
    Both entities, though, have had their challenges. Naively, 
we thought it would be easy to find grant money to help 
veterans. But as with any venture, be it not-for-profit or for-
profit, a track record is needed. Enthusiasm and expertise 
alone is not enough to get funding. So through self-funding and 
self-sacrifice and a few family loans, that was the path we 
chose. There were many times along the way when we wanted to 
call it quits, each of us at different times.
    The challenges for any entrepreneur are funding, space, 
time, and help. In the case of TPG, I could do it around my 
daughter's schedule and in my home. That was a lot easier. I 
got a small loan from my parents to get equipment, but it 
hasn't been as easy with Growing Healthy People and Grow Well 
Farms. We needed a space to create an indoor farm and where the 
public could come visit and see the possibilities for year-
round food production which would provide healthy food and jobs 
in the local food industry.
    We rented a 1,600-square-foot space in Grayslake, but 
quickly found that the rent and utilities were more than our 
foundling not-for-profit could afford, and we had to at the 
time leave there, and also that is when we started Grow Well 
Farms--as you can see, these are our micro-greens here--because 
we needed to generate income. So that is why the two entities 
really work hand in hand.
    I know my time is up, so I will just say that networking 
has been an amazing way we have grown both entities. We have 
had an executive MBA team from Loyola wrote a business plan as 
part of their final project. We had an Eagle Scout contact 
Growing Healthy People to see if there was a project that he 
could do for us. So Kevin taught him how to create and build 
aquaponic systems. The Scout also had a relationship. He had 
gone to school at Lake Forest Country Day School in Lake 
Forest, and that is where those aquaponic systems are thriving 
and growing food.
    We were able to secure a lease there with the school for 
three years for $1. And in exchange, we offer educational 
opportunities for their students to learn about the food 
system, become their own farmers, and have a farmer's market. 
It has been really fun.
    But one of the biggest things that has kept us going is 
through a lot of relationships. We were awarded a significant 
grant from Abbott Fund to build a nutrition hub in two 
greenhouses, one at the Thomas Jefferson Middle School in 
Waukegan, and one in North Chicago at the middle school. We 
installed aquaponics, aeroponics, towers, and hydroponic 
systems, and it was very exciting to see students who may eat a 
can of frosting for breakfast, or dumpster dive--good stories--
that they were learning about eating nutritious food and 
growing it. So, we have done that.
    I am excited to say we just have been awarded a grant from 
the Grainger Foundation to refurbish a greenhouse at Bowen Park 
in Waukegan. The greenhouse will be turned into an urban ag 
lab, and the Waukegan Parks and Recreation, their team will 
program classes.
    We received a small grant from the Liberty Prairie 
Foundation to fund a veteran intern for 120 hours at $15 an 
hour. We hope to hire that veteran for the Bowen Park project.
    We also have a connection. We are partnering with a farm in 
Wadsworth, JAMEKS Farm, that they have submitted for a grant 
from the Sustainable Agriculture Research and Education, the 
farmer/rancher grant, to develop quackaponics, which is using 
their ducks and their pond water to create nutrients to grow 
food.
    We finally, Kevin and I, finally started to get some income 
from all our years of efforts. What is the future? We truly 
believe in urban agriculture and that growing food using 
alternative methods is an excellent future. It is a multi-
million, and Kevin says billion-dollar industry. Jobs are 
created in food production.
    We also have a greenhouse that we have been awarded, or I 
have, from the Farmer Veteran Coalition, and we have tried to 
find a space to put that up. The thing is that Kevin and I are 
two people. We are the social media, we are the growers, we are 
the transportation, and now we have been creating all these 
amazing sites. I would say if anyone wants to come visit Thomas 
Jefferson, the middle school, it is truly amazing what the 
students are doing. We can grow over 1,000 plants in this one 
greenhouse, and they can be harvested every seven weeks.
    We are at the growth cycle of our business, and what we are 
really looking for, we know that there are old buildings, there 
are warehouses, there are ways that we can create an indoor 
farm and provide jobs. So that is what we are hoping to do, 
provide jobs. So I have been a 51 percent woman- and veteran-
owned business in the hopes of possibly getting some funding. I 
look at the USDA website and the Small Business Administration 
and I think possibly that feels too intimidating for me, so I 
am not exactly sure how Congress can help. But we just think 
that we are going to continue going because we haven't been 
told to stop.
    So, thank you for this opportunity to share my experiences, 
and I hope that others may benefit.
    [Applause.]
    Chairman BLUM. I will recognize myself now for the first 
round of questions for 5 minutes.
    I am a serial entrepreneur as well, so I get this what you 
are talking about, the passion. I sit here thinking, is this 
the government version of Charmaine?
    [Laughter.]
    But seriously, I just love it. I just love all your 
stories. Seriously, I do.
    The first question I have--and I guess we can just go down 
the line, starting with Mr. Whittington--is, you all started 
your business because you had a passion for something, either 
the marketplace or pride, or both. I get that. I had a passion 
as well, for software. But the interesting thing is you have a 
passion for whatever it may be, and you go from that to I 
actually need to meet a payroll, I need to pay taxes, I need to 
comply with regulations, I need to do all these things, that 
business acumen part of the equation. Oftentimes entrepreneurs 
have the passion but they don't have the business acumen to 
take it to the next level, or even succeed to be in business 
for five years.
    Our Committee has jurisdiction over the Small Business 
Administration. Administrator Linda McMahon is the new director 
of the SBA, and Ranking Member Schneider and I want to make 
sure the SBA is being responsive in helping small businesses as 
much as we can.
    So, it is a long-winded question. My question is, going 
from passion to business acumen, where did you find those 
resources? Did you have trouble finding those resources? Are 
you still having trouble finding the resources that you think 
you need?
    I will take this back to the SBA, because I know that 
agency exists to help small businesses in our country.
    So, did you have trouble? Are you having trouble finding 
those things on the business side of it?
    Mr. WHITTINGTON. Yes. So I would say, bottom line, we are 
blessed as a family. I started as an entrepreneur at 50 years 
old after 20-plus years in corporate. Interestingly, what I 
found from an SBA perspective is in some cases we took a risk, 
100 percent funded our first location. SBA wasn't helpful to us 
because of where we were from an income perspective. The risk 
that we would have to actually take to get an SBA loan was 
higher than we were willing to take, if that makes any sense.
    Now, what is interesting is we are a co-working location 
where there are many businesses that actually work and start up 
there.
    So what I do see--and this is where it comes a little bit 
from a do versus tell orientation--is the businesses that are 
in our location that in some cases are starting from scratch is 
the serendipity of just running into somebody and saying, well, 
I don't know how to make a business plan. Well, you will find 
somebody that does. Or I don't know about the legal 
ramifications of starting my business. Well, you can find 
somebody that does.
    But again, the ``do'' piece is I have sat in networking 
events where you can open your notebook and you take notes on 
the basis of social media, and you can go back about three 
months and find it again because you had a 30-minute window to 
sit down and have somebody tell you about what was going on 
today. What is really, really helpful is the ``do'' side of it, 
help me do it, sit down with me, who are the experts, and there 
is a whole bunch in the community that can actually help me get 
beyond. That is where I think really looking at--you know, 
don't just set up a 30- to 60-minute exercise to tell me about 
the basics. Put a workshop, put something in place that 
actually brings the experts together. I think that is 
important.
    Chairman BLUM. And mentorship.
    Mr. WHITTINGTON. Correct. That is very important. There are 
a whole bunch of stars out there. If you look at the 
contingents, it is growing. There is a whole bunch of 
experience out there.
    Chairman BLUM. Ms. Barnhart?
    Ms. BARNHART. Can you restate the question again?
    Chairman BLUM. Your company is a great example, from a 
passion for slow cooking, the business side of this, the 
business acumen, how did you find that? Where did you go to 
find it? Are you still having trouble today finding the acumen 
you need, the mentorship you need to go to the next level? And 
I am going to take an interest in the SBA, the Small Business 
Administration, if we can do more to help.
    Ms. BARNHART. To help that going----
    Chairman BLUM. Yes.
    Ms. BARNHART. Okay. I am also a serial entrepreneur, so 
this was not my first venture. I learned some critical lessons 
along the way. One of the things I did early on--and I happen 
to live in a community of excellent mentors--I formed a--I call 
it my ``kitchen cabinet.'' I had ex-CEOs. I had an artist and a 
communications specialist, and I picked people from different 
industries, and I put pieces of white paper all over my house 
that said I have an idea, help me think about it, and we just 
spent a morning brainstorming.
    So I pulled together those people really early, and that is 
something you can do--you know, you don't have to pay anyone 
for it. I still have that pro bono team, and they rotate. 
Different people come in and out as I need different things.
    I was lucky to have that, and I was also fortunate to be 
part of a small business incubator that was started in my 
community. I was the second member to join it, and that gave me 
access to the Small Business Administration.
    I think what Steve said is really important. They actually 
gave me the consultant, did not charge me to write my first 
business plan, and I had two interns work with me, two college 
interns. I have interns all the time, and they helped craft the 
plan.
    So I think if you can just assign somebody, give someone a 
shot, help fund it and get them going, that would be a great 
resource to getting going.
    So I think that probably the next thing is that the 
regulations and the minutiae and all the things you have to go 
through when you open any of these websites is so overwhelming 
that you just want to close it down, as an entrepreneur, right? 
Your brain is wanting to create, so it becomes sort of 
overwhelming. So I think anything you can do to simplify and 
make it really boilerplate would be really helpful. So that 
would be my recommendation.
    Chairman BLUM. Thank you.
    Mr. Borris, you mentioned a sane immigration policy. I know 
in my district in Eastern Iowa, most of the businesses, the 
issue they have is they can't find employees. It isn't that 
they can't find the revenue or the customers. They can't find 
employees. I agree with you, I think a sane immigration policy 
is important, or we will not achieve the economic growth rates 
we want to achieve.
    I know I am over time by 2 minutes, but could you give us 
your thoughts on that?
    Mr. BORRIS. Sure. So I would say that, with all due respect 
to what is happening in Washington right now, we created an 
abject culture of fear in immigrant communities with the 
election of Donald Trump. I am just saying that out loud, 
right? And I think what has happened is whether people were on 
the margins or whether people were on the edge of their green 
card expiring, or whether people were actually legal, the 
culture of fear has been created for their extended families 
and the concerns about--and this is what I think has dried up, 
particularly in my industry. My industry lives on immigrant 
labor, right? The restaurant industry lives on immigrant labor, 
particularly in the Chicagoland area.
    It has been a tremendous crippling year that has happened 
in that marketplace. The broader access to the people that we 
need to work in those $15-an-hour jobs, yes, it has been very, 
very difficult. I don't know how it plays out in your district, 
but I believe that it is a big problem for us to find----
    Chairman BLUM. We have restaurants in Iowa as well.
    [Laughter.]
    We have meat packers and poultry processing plants.
    I understand the President says we want the best and the 
brightest, and sure, I would love to have immigrants come to 
the United States and cure cancer, absolutely. But I know in my 
district at least, we also need those people that do not have--
that today's employers cannot find.
    Mr. BORRIS. It is part of the American Dream, right? I 
mean, this is not a difficult conversation. And running 
throughout all of this is a conversation about social mobility. 
I love that my father was able to co-sign a loan for my 
business back in 1989, the second loan that we took. Your 
parents were able to give you a loan. What do we do about 
really bright kids in the inner city who have fabulous ideas 
and don't have that opportunity?
    Thirty years ago this country was the most socially mobile 
nation in the world. Now we are not even in the top 20, and 
that is part of the immigration conversation as well.
    Chairman BLUM. Thank you.
    Ms. Besenjak, right? I will get it eventually by the end.
    I will ask the original question about passion and getting 
the resources and mentorship. Is the government in your way? 
Are they helping? Are they hurting?
    Ms. BESENJAK. I don't think that they are in my way or 
hurting me. I have always--I go on the SBA website. I didn't go 
that route, but I went to libraries and researched how to write 
a business plan and did all of that. I didn't go on the SBA 
website. It was probably not around as much in 1990.
    So I would say that for me, the only thing that is 
intimidating for me is that Kevin and I have worked very, very 
hard, and self-funding to where I went through all my 401(k) 
money to support an idea that I totally believed in, much to 
the chagrin of my husband, who said why are you still doing 
this? And I said because I still feel like we are supposed to 
do this.
    So what I am saying is I have self-funded. But is there a 
way to get some kinds of funds? Because that track record that 
we created, does that help us? I don't work and I don't have my 
401(k) anymore, so what do I use for collateral? Perhaps my 
house, I guess.
    Chairman BLUM. I was working for a bank before I got this 
job, and I was chairman of the credit committee. So when you 
say does the track record make a difference? Absolutely. It 
makes probably the biggest difference. When we look at 
commercial loans, the first question is what kind of track 
record does this individual or this company have, so that will 
serve you well.
    Ms. BESENJAK. We just felt really gun shy because we just 
didn't want to take on any debt. And yet, in order to really 
move forward and pay people, including ourselves, and 
generating more business, it may take something like that.
    Chairman BLUM. Thank you very much.
    I am way over my time. I yield to the Ranking Member, Mr. 
Schneider.
    Mr. SCHNEIDER. Thank you. I think the one thing we have 
learned about field hearings is time gets away, but that is 
okay. That is what I like about them, the chance to get more 
in-depth.
    Again, thank you all for sharing your perspectives and your 
stories, and your passion. I think that is really important.
    Ms. Barnhart, you used the word ``calling'' in your 
testimony. I think ``calling'' describes it for so many small 
businesses and entrepreneurs. They have it in their heart. They 
feel it in their guts. The issue is that a calling is not a 
business plan. A calling may be the motivation. A calling may 
be what gets you up in the morning to move forward. But without 
that business plan, it is hard to get to the next steps.
    Mr. Borris, you talked about the role government plays, and 
I have a perspective. I think there are four things for 
business success. The first thing is that vision, passion, 
business idea. That is for the entrepreneur to develop.
    The second is access to talent. I think the role of 
government is making sure that we are educating our young 
people, creating those opportunities.
    The third is access to capital that we talked about and 
making sure that we are not taking the rules for large 
businesses that protect our economy and applying it all the way 
down so we squeeze out local access to capital that is so 
important.
    And the fourth piece is a constructive, positive, dynamic 
business environment. They are providing insight and long-term 
stability.
    I didn't mean to start with a speech, but I guess I have. 
But I want to go back to the calling. I want to go back to the 
idea that entrepreneurs have to have a calling. I will go 
across, and I guess, Mr. Whittington, I will start with you.
    Mr. WHITTINGTON. Okay.
    Mr. SCHNEIDER. You have this co-working space. You talked 
about the idea of people coming together. Everyone has their 
distinctive calling, but how do they help each other go from 
calling to business model to success?
    Mr. WHITTINGTON. Well, to speak to calling real quickly, 
that is a given, because sometimes that is the only way to get 
through the day.
    A picture of the why for me is I have a director of sales 
of Fuji Film who is working in our co-working space. His wife 
came in and is on video for us saying our relationship is 
better because he is out of the house, right? Our relationship 
is better. But they have lunch twice a week, and the best thing 
he said, as he wrapped it up, he said, ``And my dad called, and 
I was there in 5 minutes,'' right?
    So from a calling perspective, it is that integration of 
work and life. Our worlds are so complex, and what can you do 
to make it a little bit more friction free? What can you do to 
glorify the 360 that is us, in an environment that just changes 
so rapidly?
    Part of what happens, I mean, you call it serendipity. The 
same professional has a lot of experience with photography 
equipment. One of our Deerfield-based residents who came out of 
their townhomes basically has a son that is starting in the 
audio field and didn't have a job. So the offer was made by our 
director of sales to go downtown to a conference, ``Why don't 
you come down and we will go hang out and I will introduce you, 
give you an idea of what is going on.''
    So that is an example of--you can call that social, you can 
call that business. I am not entirely sure what it is, but that 
is how you give vision to someone--I'm sorry, you take it 
beyond vision, and that is a great point.
    The fourth point that you made I think is the most 
critical. That is the operational piece. So, you have a great 
idea, and you can have the best talent in the world. But if you 
don't have an environment--and it is not a point-in-time 
environment. It is every day, right? It is an environment that 
allows me to get better. And what happens is you just get out 
of the way. You create the environment and you just get out of 
the way and let people bounce around, let the dots connect.
    I am not sure if I answered your question, but that is 
exactly why I do what I do, is to get out of the way and 
connect dots.
    Mr. SCHNEIDER. That is a good answer.
    Ms. Barnhart?
    Ms. BARNHART. That is a great question. I actually work 
with a startup with someone who had a great calling and passion 
and no business plan. And I spent a whole year trying to help 
the business get off the ground, and I could see that without a 
plan it was just going to be a fantasy. So that was one of the 
first things I did, was really understand the value of the why 
behind the business. I understood the passion and wanted to 
create something for my son. I wanted to help people who were 
struggling in their kitchen to feel a little success in their 
lives. So that was where the heart was. But I knew that if I 
didn't have a solid plan, it would never grow, it would never 
have a solid foundation.
    So I think that because of the incubator at Lake Forest, 
because of my own personal connections, which are not always 
accessible to other communities, which is why I feel incubators 
are so critical--I see it in Chicago. I am working with a lot 
of really great entrepreneurs in Chicago. One is trying to 
create employment in Englewood, making these really cool T-
square snacks. They are just invaluable, I think, to 
entrepreneurs, to give them the discipline to create the 
business. I think that is really critical.
    So if you can create--if the government could assign a 
consultant to incubators, get the SBA to really help provide a 
tool to create that solid business plan, I think that would be 
invaluable to the entrepreneur, because then capital comes out 
of that, and then customers come out of that. But if you don't 
have a good plan--I think that is really critical.
    Mr. SCHNEIDER. Mr. Borris?
    Mr. BORRIS. I think that all of that, the help and the 
expertise of how you can work the calling into a solid business 
plan also revolves around conversations on capital, right? I 
mean, if I get one more phone call from American Express or 
Visa MasterCard offering me a cash advance that I don't have to 
pay back for a year--we are codifying predatory lending in the 
business environment, right? I mean, payday debt traps are one 
thing for my employees. We don't allow that to happen for them, 
because we loan our employees money so that they don't wind up 
there. But how many merchants have been hammered by this? The 
money feels great for 12 months until the debt comes due, and 
most merchants who haven't paid back after 12 months, they 
can't pay it back anyway, and then they are stuck at high 
interest rates. It is disgusting.
    But putting that piece together, that can all come 
together. And I don't mean to harken back to 30- or 40-year-old 
policy. But when you look at what we tried to do years ago in 
the Community Reinvestment Act, if you do something like that 
to fund community banks that provide capital, and then expand 
that a little bit more to what you guys are talking about, 
about feeding that into a consultant-type atmosphere, I mean, 
yes, you could explode opportunities for people who are either 
just entering the idea or have been working for 20 years, like 
you were saying I want to go out and be entrepreneurial but I 
don't really understand that business structure. Well, let us 
coach you and mentor you and lay out for you the pros and cons, 
and then you can make a valid decision.
    But I would think there is a role for government to play 
there.
    Mr. SCHNEIDER. Cheryl?
    Ms. BESENJAK. I really love the idea of the mentorship and 
having local incubators. I did go down to the veteran 
incubator, Bunker Labs, and for me as a small business owner, I 
felt like that was bigger business than who I am. So while it 
was exciting, these are people who are creating great big 
companies, and I was just creating my little micro-green 
business.
    So it didn't feel like that was the place for me, even 
though I was a veteran, and that is okay. So I was thinking 
maybe some more local entrepreneurship groups. That would be 
really great.
    The one thing--yes, I have a fabulous business plan by the 
executive MBA group, and the very first thing it says on the 
business plan is that you need to get funding to fund a 
vehicle. That is great. My car has been transporting all over, 
everywhere. But the other thing is it said to get a 
salesperson, and that meant you had to pay a salesperson to do 
the sales.
    I mean, I am good at it, but I am not great at sales. I am 
great at presenting the passion, but I needed somebody who 
would take all the greens to the various restaurants and then 
follow up and follow up. I mean, people want to buy these, but 
where is the follow up? I am also trying to grow wheat grass. 
So if I could have a salesperson who was doing that, that would 
be awesome.
    So if there is a way to tap into some kind of group, maybe 
going to the Lake Forest group and talking to them, are there 
some people who might be interested in doing that to build a 
business, to then have a percentage of the sales, creative ways 
to fund help.
    Mr. SCHNEIDER. I think you touched on a key point. When you 
talk about the why, I think the challenge each entrepreneur has 
is to know their respective own personal why. But more broadly, 
the next step is to learn the how. The whys are unique. The how 
is fairly consistent. You have to develop a market, get our 
capital, teach your employees.
    We have talked about this, Mr. Blum and I have talked about 
this, creating communities of opportunity, creating communities 
where there is the ability to learn, to inspire, to teach each 
other. There are different communities. I know Bunker Labs 
well. The founder is a friend of mine. They are targeting a 
certain group, and that community is going to work very well. 
That may be very different from what you saw with Lake Forest 
and what you created there. Each community will be distinct, 
but within those, where the government, I think, can play a 
role is trying to promote ladders or stairs, whatever metaphor 
you want to use, while at the same time making sure we have 
guardrails and safety mechanisms.
    I think our legal system provides that. Mr. Borris, you 
talked about the protections. It is not just that we are 
protecting small businesses. You may not have the 
sophistication to know that there is transparency in lending, 
and this is a constant ongoing process.
    I will close with this, the idea of the three-legged stool. 
The entrepreneur is always going to be the driving engine of 
our economy. It has been throughout our history. But creating 
the environment where the entrepreneur can get success and get 
the people they need, the space to prosper, the capital to 
grow, and the government provides those guardrails and 
ladders--I think if all that comes together and you create that 
stable place for the economy, it will grow and prosper.
    And I want to emphasize this, that it is not a partisan 
issue. It is not because I am a Democrat and Mr. Blum is a 
Republican. It is because we know that the spirit of the 
American people to achieve and produce their own success is 
unleashed when we create these opportunities.
    So, with that, I will yield back.
    Chairman BLUM. Thank you, Mr. Schneider.
    I will start the second round of questioning now.
    Please tell me--and I am going to take copious notes here, 
and I will take it back to Washington and put it in a letter 
and send it up the food chain there--where is the Federal 
Government hurting you in your business? And the second part of 
that question is how can the Federal Government help you in 
your business? I am going to take notes here, and I will get 
your message back there.
    Mr. Whittington?
    Mr. WHITTINGTON. Yes, a fantastic question. So, I think one 
area that has been talked about here is in health care. I would 
tell you it actually could be a help to my business. I am 
looking at how, for my members who are not my employees, we can 
put something in place that would allow access--association, 
group, whatever it might be--but would allow for a more stable 
environment for you to make a choice to even dump into, 
whatever. So that is a piece, to stabilize that and really 
looking at flipping the script. It is not about freeing up 
companies that are under 50 employees, but flip that script and 
say how do you reasonably make a choice, because we see a lot 
of small businesses, very small, where that is a risk for them.
    It is probably stability. I am still learning. I have been 
around for two years, open for a year.
    I did mention, from a municipality perspective, I was not 
aware of any focus on incubators and accelerators. I think 
helping to foster that environment, again being the ladder. 
There are so many needs out there for so many small businesses. 
You have your passion, and you have a flat spot.
    So I think I have had the SBA and the SBDC come in and 
tour, love our place. They have their location as to things 
that they do. I have not done the best job of better 
understanding the opportunity there.
    Chairman BLUM. Is the Federal Government hurting your 
business or your efforts?
    Mr. WHITTINGTON. It is not hurting me. I don't know how it 
is helping me. It is not hurting me today. It is not hurting me 
today, or maybe I don't know where it is hurting me, but it is 
not helping me. It is not helping me at all. We figure it out 
as we go along.
    Chairman BLUM. Thank you.
    Ms. Barnhart? The same question.
    Ms. BARNHART. Yes, it is a good question. I think that 
anything the Federal Government can do to simplify--I am in the 
food space. Anything you can do to simplify the regulations. I 
do think the Federal Government has a critical role in 
overseeing the quality of the food that people are eating. I do 
think the government could do a better job getting processed 
food and non-GMO, I guess, in some ways the labeling could be 
stricter, which would probably be counter-intuitive to say 
that. Because my product is a natural product, I think people 
need to understand what they are eating. So I think that is a 
critical role.
    But I think anything you can do to simplify, from the 
startup perspective, what you need to do to be compliant, it is 
very confusing. My partner is in the U.K., and they have a lot 
less--of course, it is a different country, but they have a lot 
less regulations for home food businesses, cooking classes. 
There are things we have to jump through hoops for startups.
    Chairman BLUM. I just have a follow-up question to that. 
You mentioned you are in the natural food space. Is that what 
you said?
    Ms. BARNHART. I said what?
    Chairman BLUM. Did you say you were in the natural food 
space?
    Ms. BARNHART. Spices, yes.
    Chairman BLUM. I have been involved in hearings in 
Washington where the definition of ``natural'' and how that can 
be abused. I guess in 30 seconds, can you give me your thoughts 
on that definition? Does it need to be tighter, or is it 
ridiculously tight? What are your feelings about it?
    Ms. BARNHART. Well, it is interesting. My product is just 
spices. I don't have salt in them, I don't have fillers or 
anything, but I want to put ``salt-free'' on the front of them 
because they are salt-free. I now have to go through a whole 
series of regulations to create a label that basically says 
zero, zero, zero, zero on it, because I want to make that 
claim, which seems ridiculous. So that seems ridiculous to me, 
and I pay a consultant to help me do all that, which is 
expensive.
    But on the flip side, there are so many additives in our 
food products right now. The American consumer really is, I 
think, being poisoned, to be honest with you. You don't see 
those kinds of additives in other parts of the world as what is 
in our food. So there is a reason we have to go through all 
these hoops now. It is both, actually, something for you all to 
think about. If there is something you could do to clean it up, 
that would be great.
    And then I just think the other thing is just employment. I 
would love to bring more people on, but with the taxes, and now 
I have to get health care, and all the things you now have to 
do, for me it is just better to have independent contractors. 
So I don't know if there is anything you can do to simplify 
that, too.
    Chairman BLUM. You do independent contractors instead of 
employees?
    Ms. BARNHART. Yes.
    Chairman BLUM. And the reasons again?
    Ms. BARNHART. It is just more paperwork. I am a small 
business, just trying to figure out how to make it work, and I 
am a ``me'' corp. I am running it ethically.
    Chairman BLUM. Thank you very much.
    Mr. Borris?
    Mr. BORRIS. I think there are three things right now the 
Federal Government could do better in the way it is behaving 
that is hurting small business in general. I think that this 
passion--and I know you guys are up here presenting a wonderful 
picture of bipartisanship, but this passion for politics over 
policy is not ascribed to any particular party but is ripping 
apart the ability of the United States Congress to actually do 
things on behalf of the American people. I will give you three 
quick examples of things the Federal Government is doing or not 
doing.
    One is this conversation about repealing health care--it is 
unbelievable to me--without a valid conversation about what 
replaces it. The 16 percent of the largest economy in the world 
is tied to these conversations, and we are throwing around 
concepts like they mean nothing.
    ``Let's get rid of the individual mandate.'' Okay. Well, 
then how do you stabilize markets? ``Oh, don't worry, they will 
self-stabilize.'' Well, they won't self-stabilize unless you 
allow insurance companies to discriminate on preexisting 
conditions. ``Oh, no, no, we are not going to do that.'' 
Watching the whole thing is ridiculous, right?
    So let's come up with a really valid plan. Let's sit down. 
We had eight years to talk about it. We did nothing about it 
for eight years. That is a frightening prospect, I think, for 
small business owners.
    The second thing is the conversation about let's get rid of 
the Consumer Financial Protection Bureau. Let's just let Wall 
Street have at it, like they used to have at it. These problems 
did not start under a Republican administration. These problems 
started under Bill Clinton's administration when we deregulated 
the Commodities Futures Trading Commission, when we deregulated 
banks. We should have an economy that should have Wall Street 
supporting the real economy. Instead, we have Wall Street 
drawing money out of the real business owners' pockets, and I 
would suggest out of consumers' pockets also.
    So let's look at ways that the CFPB could actually work and 
be meaningful in people's lives and in small business owners' 
lives instead of saying let's just throw the baby out with the 
bath water, we don't want any regulations; laissez faire 
capitalism, it is going to work great. Except it never has 
worked great, right? We need a healthy government to stand on 
behalf of the common man, and I am not seeing that attitude in 
Washington right now.
    And the last thing--and we have been talking about this for 
a long time. Unfortunately, because of some very courageous 
activists and because of the way the market has worked, we are 
actually seeing wages rise, and I would suggest that raising 
wages is one of the most important things that we can do to 
really fuel consumer demand, and we have seen it happen on its 
own.
    But to vilify unions on their own, and to say forget about 
doing anything like that while unions really are a great 
solution for raising wages--so some sort of valid conversation 
in D.C. that doesn't say let every business owner pay one 
dollar an hour; if people are willing to work for one dollar an 
hour, let them work for one dollar an hour. We know people 
will, because desperate people do desperate things.
    So I would say those three areas: wages, consumer financial 
protections, and health care. Those are areas that Washington 
is freezing us right now with uncertainty and could really come 
together if they would be willing to let policy trump politics.
    Chairman BLUM. Thank you very much.
    Cheryl?
    Ms. BESENJAK. Thank you. Where does the government hurt me? 
Currently, I don't feel like it does. Only one small little 
regulation around wheat grass. These are all considered 
agricultural products because they are growing in soil, so I 
can sell them this way, and there is no regulation on micro-
greens right now. But wheat grass, if I cut it, I have now 
processed it. I have tried to explain everything. So that is 
just one little example. Sometimes regulations can get in the 
way.
    Where could it help me? In particular, I was just thinking 
about the mentorship issue and thinking if there was a place 
for me to come and say here is where we are, here is what we 
have done, what we see next is we would really like to be able 
to have better interns come and learn. Is there a program? I 
don't know all the programs available, but is there a program 
through the government that would fund us to train veterans? So 
if I could go and just say here is where we are, is there 
someone in government who knows all the ins and outs and has 
ever looked into this, that would be very helpful.
    We know how to train them, we know what to do, we have 
facilities where we can take them to learn, but we need someone 
to say here is how we can bring that together, the funding to 
help veterans have a new job, is there a way, that would be 
very helpful to us.
    Chairman BLUM. Thank you very much.
    Brad?
    Mr. SCHNEIDER. Thank you. I want to be respectful of 
people's time, so I will just thank you all for joining us.
    Since you touched on veterans, there is a lot of work being 
done on behalf of veterans. The first bill I introduced this 
year was the Veterans Industry Program that would allow 
veterans to work in businesses using the GI Bill dollars, 
rather than going into a classroom, to go and get an internship 
working with a business, internship credit. It is a very 
frustrating thing for me that we have these veterans who are 
trained in skills, whether it is someone who has learned all 
the medical skills necessary to step immediately into the role 
of a nurse, or someone who is operating a piece of artillery 
that is every bit, if not more, complex than any piece of 
equipment, and they can't necessarily say translated in 
language ``Here is what I know'' so they can be hired. We can 
do a much better job on that.
    But what I heard across the board was a desire to reduce 
complexity. This is something where I think we can make a 
difference, something you touched on, the zero-zero-zero. You 
kind of showed the tension, because we want our food to be 
safe, we want to make sure that people are producing safe food 
and getting it to us as efficiently and as effectively as 
possible. So I think we can work to reduce complexity, increase 
efficiency, and enhance efficacy. But again, that takes people 
coming together and having the conversation.
    Mr. Whittington, one of the most important points you made 
in your prepared testimony, and you said it again in the 
questioning, is the issue of health care, that people's health 
care--and, of course, you were talking about the need for 
health care, one-sixth of our economy. We need health care 
reform or I know as a policymaker we will never get ahead of 
the curve. It has been seven years, and now we are approaching 
eight, before we have been able to do anything since the 
passage of the ACA, while health care technology is moving. We 
may never get ahead. We have to constantly work to move 
forward. That is different than the policy.
    So many people are afraid to go out and venture on their 
own to give up the secure health care they have in a job that 
maybe is holding them back, and I think that is one of the 
things that is holding back our economy.
    So we have to figure out a way to reduce, if not eliminate, 
the friction of preventing people from taking their passion, 
learning the how, and then venturing out and taking the risk of 
doing it on their own, that entrepreneurial risk.
    We touched today on immigration reform. We have to take 
care of the Dreamers. That is an imperative right now. But 
comprehensive immigration reform, the non-partisan 
Congressional Budget Office says it will add $2 trillion to our 
economy. Well, why? Because it pulls people out of the shadows. 
It will address the issue of people working for bad employers 
taking advantage of people who are afraid to come out of the 
shadows. It hurts everybody, good employers and hard-working 
people. If we have comprehensive immigration reform, I think 
that is a key thing.
    Then we have this tax debate. We need a reformed tax code. 
We definitely need a reformed tax code, one that helps working 
families and small entrepreneurs, businesses, businessmen and 
business women across the country, to take the next step, to 
buy that piece of equipment or hire that new employee, or 
introduce that new product, or venture into a new market.
    So there are a lot of things where I think we can come 
together and make a difference.
    I will just close, because I know we are past our allotted 
time. But again, I want to thank the Small Business Committee 
and my colleague, the Chairman, for coming here. I thought this 
was a great panel. I will put it on par, as good, if not better 
than, any panel we have in the capital. So, thank you for your 
testimony.
    It is always a great opportunity to have these one-on-one 
conversations with business owners. Obviously, to the audience, 
to those who came to listen, thank you so much for being here.
    I did want to thank the Village of Deerfield, Mayor 
Rosenthal, our Village Manager, for making this available to 
us.
    I look forward to continuing the conversation. This is not 
a one-and-done. Our economy is constantly growing. The 
challenges will be ever-present. But as we listen to the voices 
of the people like you who are out on the front lines trying to 
make a difference, trying to change people's lives, whether it 
is veterans or people with disability challenges or people just 
trying to make that mid-career what-do-I-do-next and find their 
why and their next passion, that is how we make this economy 
work.
    So, thank you again. I appreciate you being here.
    I will turn it over to the Chairman.
    Chairman BLUM. Thank you very much, Brad. And thank all of 
you for being here. I would like to echo that sentiment as well 
in this beautiful facility today. Thank you to our great panel 
of witnesses here today.
    I was just saying to Daniel here that this is as good as 
any hearing we have had at least in the last year that is for 
sure.
    Thank you to the veterans for serving our amazing country, 
and also for caring about veterans still and trying to employ 
them.
    And I believe you are trying to employ people with 
disabilities, and thank you very much for doing that as well.
    I think Mr. Borris mentioned something about the 
partisanship in Washington, D.C., and I couldn't agree more. 
One of the nice things about being on this Committee, and I am 
sure Brad would agree, is that if there is any issue that we 
could be bipartisan on, it certainly should be and is small 
businesses and our economy, so people can climb that ladder of 
opportunity. I know I climbed it, and we want to see more 
people climb it, the American Dream. That is why I ran, because 
I want to make sure the American Dream is alive and well and 
thriving, because I think it is what makes America unique in 
the world.
    It is a bipartisan issue, and I work well with Brad. 
Sometimes during the hearings and afterwards I say, you know, 
if it was up to he and I, we could sit down and probably solve 
most of these problems, right?
    [Laughter.]
    Mr. SCHNEIDER. That's right.
    Chairman BLUM. But somehow, with the leadership on both 
sides of the aisle, I don't know what happens. But as a 
business person myself, it is frustrating. I am there, and I am 
sure Brad is there, to solve problems. You can't solve them if 
you don't talk to each other. So I share that frustration. Many 
of us are frustrated.
    But this has been wonderful, it has been absolutely 
wonderful. Thank you for your hospitality. And thank you, 
everyone, for being here today.
    Members have 5 legislative days to submit statements and 
supporting materials for the record.
    Without objection, so ordered.
    This hearing is now adjourned.
    [Applause.]
    [Whereupon, at 11:11 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

               House Committee on Small Business

                   Monday, December 11, 2017

    Thank you, Representative Schneider and Representative 
Blum, for inviting me to share my thoughts and my 
entrepreneurial journey.

    The origin of my business, the zen of slow cooking, began 
many years ago, and the essence of it is captured in this 
picture. These are my 3 children, and you can see that in those 
years I had a very ``un zen-like'' life. In addition to the 
three children being close in age, my middle son was diagnosed 
as developmentally delayed when he was a baby, so as he entered 
his school years it became a challenging time for our family.

    I called my best friend one night in tears, asking for her 
help and told her that I couldn't even get dinner on table. She 
had 3 pieces of advice:

          1) You aren't a failure
          2) Get off the phone
          3) Buy a crock pot

    I understood the first 2 pieces of advice, but not the 3rd. 
She then explained how a crock pot (now more commonly called a 
slow cooker) worked, and I set out the following morning to buy 
my first slow cooker.

    I fell in love with this little kitchen appliance. It gave 
me the opportunity to create a dinner hour similar to the one I 
enjoyed as a child. My mother cooked from scratch each 
afternoon and we enjoyed a very zen-like dinner hour when my 
father came home from work.

    I found that my preparing food in the morning using my slow 
cooker, I could use the afternoon to take my young children for 
walks, help with their homework, or otherwise effectively meet 
the flurry of activity that comes at that time of day.

    I cooked steadily with my slow cooker for 2 years. Then one 
day my daughter came to me crying and said she couldn't eat any 
more ``thick meat''. I knew what she meant. I only knew how to 
make a few really good things in my slow cooker, such as pot 
roast or beef stew. Fortunately, by that time I understood the 
science behind the slow cooking process and was able to start 
adapting some of my favorite recipes, so that they worked in 
the slow cooker.

    Fast forward to 2010. I decided to spend a year studying 
what life would look like for my son who has language based 
challenges, when he aged out of the school system, and found 
that only 25% percent of young adults with cognitive 
disabilities are employed. My son, Doug, who is here today, is 
a shining light and I couldn't imagine a world where his light 
couldn't shine. I began to believe that creating opportunities 
for adults with employment barriers was my calling, so I 
decided to take my entrepreneurial energy and create a business 
where he, and others like him, could work.

    I shared this vision with a friend, and said I wasn't 
really sure where to begin. She asked a simple but truly 
important question--``What makes you happy.'' I laughed and 
shared how I loved slow cooking--how I used my recipe time as a 
period for quiet reflection in an otherwise busy day, and how 
much I enjoyed how the delicious aroma of the cooking food 
filled my house all afternoon.

    She said, ``I'm not sure what you are talking about, but do 
that''. So those are the inspirations behind the zen of slow 
cooking.

    It took another year to find the right partner to help me 
get the business off the ground, but I was fortunate to find a 
young mom (Jane McKay) who was doing recipe testing and food 
writing who had just moved from the UK. Together we co-created 
the zen of slow cooking food blog in 2012. The blog published 
recipes and inspirations for the home cook while putting a 
contemporary twist on slow cooking.

    Using the most popular recipes off our blog, we created a 
line of premium spice blends crafted exclusively for the slow 
cooker featuring flavor profiles from all over the globe. Our 
spice tins included a recipe and shopping list to make it 
convenient for the home cook. We packaged up tins containing 
our first 3 spice blends and took them to our local Farmers 
market. We were delighted when we sold out that first morning 
until we realized that Jane, my business partner, would have to 
blend 40 more spice blends for the next week.

    Over the next year, we sold at Farmers markets, holiday 
boutiques, and out of our home. In 2014, we were approached by 
several customers who wanted to ship our blends out of state. 
At that point, we opened our own online store and reached out 
to Planet Access Company. PAC is a social enterprise that 
provides training and employment for adults with disabilities. 
Each week Jane would hand blend and heat seal our spices. I 
would pick them up and bring them to Planet Access Company 
where 4 adults with developmental disabilities would package 
them up into individual tins. I would then return to gather our 
finished product to be sold at various events or online.

    In 2015, we opened our first wholesale account at a local 
organic farm, and later that year we had the opportunity to 
interview with Whole Foods, who loved our concept. They asked 
us to make our packaging more merchandisable and then to come 
on board.

    In 2016 we steadily built our business with Whole Foods, 
were picked up by a food distributor in the Midwest, and were 
finalists for ``Chicago's Next Best Food Product''. This 
contest was sponsored by Peapod which led to the co-creation 
and launch of 2 meal kits for the slow cooker in the 
Chicagoland area on Peapod.com that fall.

    2017 has been equally exciting as we are now in over 50 
stores around the Chicagoland area, Oregon and Northern 
California. Distribution of the meal kits has expanded to New 
York, New Jersey, parts of Connecticut, Maryland and Virginia. 
We've expanded the number of adults with developmental 
disabilities who work on packaging our products to over 30, 
have become a Certified B Corporation, and our latest spice 
blend won a Society of Food Industry (SOFI) Award for best new 
product--which is the equivalent of winning an Oscar in our 
industry.

    In addition to building our for-profit business we also 
teach complimentary cooking classes and have donated slow 
cookers to adults in underserved populations, for slow cooking 
is a safe and economical way to cook.

    Representative Schneider knows I am a big believer in 
Conscious Capitalism and feel that for-profit social 
enterprises can help create solutions to challenges we face as 
a society. And while I think it's small grass roots 
organizations and small businesses that are the best pathway 
for supporting underserved populations, I do believe that the 
Federal Government could play a role in helping expand that 
vision.

    One way is in supporting social enterprises like Planet 
Access Company. They have created employment within their 
warehouse for adults who have severe intellectual disabilities, 
and also provide employment in their fulfillment center for 
adults who need less supervision. They need additional support 
to grow their facility, provide additional job coaches and 
resources. I feel that the government could play a role in 
using them as a model, and also providing assistance in helping 
them expand.

    An area that would be helpful to my business is making it 
simpler to navigate the constant change in food packaging 
regulations. We had to pay close to $2,000 to have someone 
independently review our labels to make sure they were in 
compliance with the FDA. This would not be an issue for a big 
CPG company, but there should be a less expensive way of 
ensuring compliance. I would think a set of templates could be 
placed online that our designer could download as a starting 
point, making the cost of verifying that we meet the standards 
much more economical.

    When I started my business I became the second member to 
join a new business incubator in my community. It provided 
unbelievable support and access to mentors, markets and the 
small business administration in Lake County. Today, I'm part 
of a larger incubator in Chicago called The Hatchery. I believe 
that anything the government can do to support the growth and 
expansion of business incubators would be valuable to the 
start-up community.

    My final comment centers on B Corporations. We recently 
became a B Corp, which is a rigorous certification process for 
for-profit businesses that have a vision to be a ``force for 
good in the world.'' I would encourage the Government to 
suggest all businesses use their online assessment tool to 
measure their social and environmental impact. I would also 
consider using B Corp certification to as a way to determine 
early stage companies who merit access to any benefits that the 
government might help make available for early stage firms.

    Thank you for the opportunity to shine a light on our work.

                                 # # #

    Prepared by: Meg Barnhart
    Date: December 6, 2017
    Statement of David Borris, Main Street Alliance Executive 
Committee Member and Business Owner for House Committee on 
Small Business Hearing on ``Bridging the Entrepreneurial Gap: 
Addressing Barriers to Small Business Formation and Growth.''

    Monday, December 11, 2017

    Representative Schneider, Representative Blum:

    Thank you for the invitation to testify today. My name is 
David Borris and I serve on the Executive Committee of the Main 
Street Alliance, a national network of over 30,000 small 
business owners. I've been a small business owner for 32 years. 
My wife and I opened a homemade food store in 1985, and over 
the years have expanded it into a full-service catering company 
with 33 full-time employees and 80 part-time and seasonal 
workers. We take great pride in what we do.

    In order for small businesses to thrive in the 21st Century 
marketplace, we need access to capital to start and grow our 
businesses, vibrant local economies which create strong and 
sustainable consumer demand, and a resilient workforce. Today, 
I will focus on what Washington can do to ensure these basic 
vital conditions are met so new and current entrepreneurs like 
me, can succeed.

    CAPITAL ACCESS

    Small businesses play a crucial role in local and national 
economic growth, and are important engines of job creation. We 
are responsible for nearly half, 49 percent, of all private-
sector employment, and 63 percent of new private sector job 
growth.\1\ Despite this critical role, many small business 
owners face challenges accessing capital to start and expand 
their businesses. The share of total bank loans going to small 
business decreased from 50 percent in 1995, to 30 percent in 
2012. Since the financial crisis, small business bank loans 
have decreased by 20 percent, while loans to larger businesses 
have increased over the same period.\2\ According to a study by 
the Federal Reserve Bank of Atlanta, nearly half of small 
businesses owners, 44 percent, had issues in accessing 
credit.\3\
---------------------------------------------------------------------------
    \1\ https://www.sba.gov/sites/default/files/
FAQ<INF>--</INF>March<INF>--</INF>2014<INF>--</INF>0.pdf

    \2\ https://papers.ssrn.com/sol3/
papers.cfm?abstract<INF>--</INF>id=2470523

    \3\ https://www.frbatlanta.org/research/small-business/survey/2016/
report-on-employer-firms.aspx?panel=2

    We believe the numbers are much higher, but there is no 
requirement to collect data on credit applications and terms. 
Public information on the availability of credit to small 
businesses is inconsistent and incomplete \4\ and robust data 
is needed to provide a complete and accurate picture of the 
small business lending marketplace.
---------------------------------------------------------------------------
    \4\ https://s3.amazonaws.com/files.consumerfinance.gov/f/documents/
201705<INF>--</INF>cfpb<INF>--</INF>Key-Dimensions-Small-Business-
Lending-Landscape.pdf

    Just as the Community Reinvestment Act needed HMDA (the 
Home Mortgage Disclosure Act) to reveal the roadblocks in home 
ownership for people of color, similar data is needed for small 
businesses. This will help build vibrant local economies and 
contribute to national economic growth. It's critical that fair 
lending laws are enforced, and the data will show where 
enforcement is needed, because we need an economy that works 
for all of us, not an economy that is rigged to benefit a 
---------------------------------------------------------------------------
select few.

    TAXES

    The other thing that businesses like mine require from our 
federal government are evidence-based policies that keep 
overall consumer demand strong. The single most important thing 
I need to be successful and to create more jobs is more 
customers. Not tax breaks. Not fewer regulations. Customers 
with enough disposable income to engage my services. The health 
of my business is tied to a healthy economy that has money 
circulating in a virtuous cycle of rising wages, consumer 
demand, and job creation. Without strong consumer demand, my 
business cannot thrive.

    The House and Senate tax bills would increase federal 
deficits by $1.5 trillion over 10 years to give tax cuts to the 
country's wealthiest households and large, profitable 
corporations. Republicans will then use the higher deficits to 
justify trillions of dollars in cuts to Medicare, Medicaid, 
Social Security, education, food and rental assistance, 
infrastructure, and other vital services.

    These deep spending cuts would cause healthcare, education, 
food, and housing costs to skyrocket, which would have a ripple 
effect on small businesses, who depend on strong local 
economies with plenty of consumer demand and customers. As 
families are forced to pay more for vital services, they will 
have less disposable income, meaning small business owners like 
me would see a decline in customers.

    The cuts to vital services would also siphon trillions of 
dollars out of state economies. That means that states like 
Illinois, which are already grappling with austerity budgets, 
will be forced to make up the difference, steeply cutting the 
quality of services offered. As our state budgets contract, 
employment would decrease and small businesses across the 
country would decline. The Senate tax plan raises taxes on 87 
million low and middle income families, including Main Street 
small business owners and their customers to pay for tax cuts 
for the wealthy and Big Business. According to the Joint 
Committee on Taxation and the Congressional Budget Office, in 
2027, families earning $40,000 to $50,000 would pay a combined 
$5.3 billion more in taxes, while making those $1 million or 
more would get a $5.8 billion cut.\5\ This will devastate small 
business owners.
---------------------------------------------------------------------------
    \5\ https://www.cbo.gov/system/files/115th-congress-2017-2018/
costestimate/reconciliationrecommendationssfc.pdf

---------------------------------------------------------------------------
    JOB QUALITY

    Another way to increase consumer demand is by raising the 
federal minimum wage. Henry Ford understood the link between 
well-paid employees and paying customers more than a century 
ago when he recognized his business would only succeed if his 
workers earned enough to buy the care they were building, and 
doubled his workers' wages overnight.

    In our local economies, that same link applies: my fairly 
paid employee is my neighbor's paying customer. When people in 
my neighborhood can't earn enough to keep up with the basics--
things like buying food, obtaining school supplies and making 
car repairs--the entire local economy becomes unstable. That's 
bad for small business, and bad for the economy as a whole.

    Increasing the minimum wage also reduces costly employee 
turnover and increases productivity. When the minimum wage goes 
up, small businesses can reap such benefits without being 
placed at a competitive disadvantage relative to large 
corporations, because all companies in their field are required 
to do the same, leveling the playing field for small 
businesses.

    HEALTH CARE

    In addition to wages, the success of my business is also 
tied to ensuring that my employees, my family, and I can access 
quality, affordable, health coverage. Hel's Kitchen began 
offering health care in 1992, as we felt a moral obligation to 
do right by the people who were making our life's work theirs 
as well. Employees contributed 50% in the first year, and 
nothing thereafter. Beginning around 2002, though, we began to 
experience a series of annual, often volatile, premium 
increases. In 2004--21%; in '05, 10%; '06, 16%; '07, 17%; and 
in 2008, yet another double digit increase forced us to ask 
long time employees to reach into their pockets once again.

    Just as confounding as the premium swings themselves was 
the source of their unpredictability. For example, we had a 
dishwasher, great at his job, but he suffered from a malady 
that required kidney dialysis. When I met with my insurance 
broker to discuss the steep rise in premium for the upcoming 
year, he quietly acknowledged the spike was primarily due to 
the illness of that one single employee.

    The ACA has helped stabilize these costs as insurers can no 
longer underwrite based on health status, and must adhere to 
minimum medical loss ratios. This shields my business from 
sharp swings in premiums based on the health of one or two 
employees.

    I see these gains in my bottom line. My company has 
witnessed an unprecedented slowdown in rate increases. Since 
the passage of the ACA, our average annual increases are a 
fraction of what they were before, averaging 4.6% for the past 
seven years. I am saving money on premiums, and can plow those 
savings back into business investment and job creation.

    IMMIGRATION

    Sensible, comprehensive immigration reform is critical for 
an inclusive, healthy middle class. In the 10th District of 
Illinois alone, there are over 172,000 immigrant residents, 
including 5700 entrepreneurs, paying $1.7 billion in taxes and 
spending over $4.5 billion.\6\
---------------------------------------------------------------------------
    \6\ http://www.newamericaneconomy.org/locations/illinois/illinois-
district-10/

    Since 2012, the Deferred Action of Childhood Arrivals 
(DACA) initiative has provided 800,000 immigrant youth with 
temporary protection from deportation and renewable work 
permits. The small business community in particular has 
benefited from the contributions of DACA recipients, and work 
authorization has enabled young immigrants to become small 
business owners and employees, and higher wages have enabled 
them to become small business customers, boosting local and 
---------------------------------------------------------------------------
national economic growth.

    Over, 87 percent of DACA recipients are currently employed, 
and many have found employment in small businesses. Small 
businesses thrive when they are able to hire skilled and 
committed employees, regardless of immigration status, and many 
of these employees are DACA recipients. Ending DACA would cause 
businesses to incur at least $3.4 billion in turnover costs.

    DACA has also had a significant positive impact on wages. 
The average hourly wage of recipients increased by 69 percent 
after receiving DACA. As DACA workers earn higher wages, they 
purchase more goods and services from small businesses and 
helping to fuel economic growth. Small businesses rely on a 
strong economy to provide a robust and sustainable customer 
base. Without DACA, U.S. gross domestic product would be 
reduced by $433.4 billion over the following 10 years.\7\
---------------------------------------------------------------------------
    \7\ https://www.americanprogress.org/issues/immigration/news/2017/
01/09/296125/ending-daca-will-cost-states-billions-of-dollars/

    There is no question that ending DACA will destroy lives 
and tear apart families and communities, but it would also 
devastate the national economy and small businesses. DACA 
recipients are small business owners, small business employees 
and small business customers. On behalf of the thousands of 
Main Street small business owners we represent, we urge you to 
pass the Dream Act into law, ensuring legal protections for 
---------------------------------------------------------------------------
800,000 young immigrants.

    In closing, I believe the role of Washington is to create 
the basic market conditions that allow small businesses like 
mine to thrive and compete on a level playing field with our 
larger competitors. We cannot continue to be the job creators 
and innovators that America needs us to be without these basic 
conditions.

    Access to capital, Affordable, quality, health care; 
policies that fuel a strong middle class and a strong 
workforce--this is the recipe for small business success.

    Thank you again for the opportunity to testify. I look 
forward to your questions.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Good morning and thank you for the opportunity to speak 
this morning about my entrepreneurial experiences at the field 
event, ``Bridging the Entrepreneurial Gap: Addressing Barriers 
to Small Business Formation and Growth.'' I hope what I and the 
others on the panel share and discuss will be a benefit to the 
committee and future entrepreneurs.

    My name is Cheryl Besenjak and I am currently the Executive 
Director of Growing Healthy People NFP (an Illinois not-for-
profit corporation) and a managing partner of the for-profit 
enterprise Grow Well Farms LLC.

    I have always had an entrepreneurial spirit--asking 
questions like what if, why not and how can I find a way to 
meet a particular need? For example, in 1990 when I decided to 
leave my job in educational publishing to stay home to raise my 
newborn daughter, I sent out 40 resumes outlining my experience 
and offering my services as a copyright and permissions 
consultant to publishers around the country. From this one 
mailing, The Permissions Group (TPG) was launched. Started 
around my dinging room table, TPG met a need for publishers. 
Quickly I started adding ``staff'', mostly stay-at-home moms 
who wanted to work while their children were in school. This 
met another need in the workforce. I am proud to say that TPG 
is still serving publishers today. And one of my first staff 
members bough TPG in 2005 when I wanted to move on to other 
ventures.

    Fast forward to 2013. For nearly a decade I had been 
developing my latest passion--growing food for those in need, 
installing gardens around the food desert in south Waukegan and 
teaching students of all ages how to grow food. I was thrilled 
to bring harvests to food pantries and a free farmers market in 
Waukegan. And I loved sharing my passion with others. I though 
a natural next step was to find ways to create jobs. When I 
read an article titled ``A Battle Worth Fighting'' in one of my 
favorite magazines, Organic Gardening. I knew I had found my 
next calling. The article explained that according to the USDA 
there was a need for a million new farmers over the next ten 
years as our country's farmers were aging out. Then it said 
that veterans returning from war could be the answer--they had 
the skills and desire for a new mission and creating food could 
be healing for those who have seen and experienced death and 
destruction. I am a Vietnam Era Air Force veteran and I love to 
grow food and I want to grow farmers. Seemed like a perfect 
match. The author of the article Dulanie Ellis was also the 
producer of the award-winning documentary--Ground Operations: 
Battlefields to Farmfields. Several of us involved in the 
Waukegan project decided to see what we could do with this new 
mission and Growing Healthy People NFP was launched. One of the 
new members of our group was Kevin Westing, a remodeler/
construction guy with knowledge of plants and gardening and a 
passion for raising fish. It wasn't long before Kevin and I 
became Growing Healthy People and then started our partnership, 
Grow Well Farms.

    Kevin and I were particularly interested in indoor 
farming--growing year round, using alternative growing methods 
like hydroponics and aquaponics which combines hydroponics with 
aquaculture, the raising of fish.

    Both entities have had their challenges. Naively we thought 
it would be easy to find grant money to help veterans. But as 
with any venture--be it not-for-profit or for-profit--a track 
record is needed. Enthusiasm and expertise alone is not enough 
to get funding. Self-funding and a few family loans were the 
path we chose. There were many times along the way we wanted to 
call it quits.

    Challenges--for every entrepreneur the biggest challenges 
are funding, space, time and help. In the case of TPG I was 
able to start in my home and work around my daughter's 
schedule. I did take out a small loan from my parents to pay 
for equipment and start-up costs. With Growing Healthy People 
and Grow Well Farms, it hasn't been as simple. We needed a 
space to create into an indoor farm and where the public could 
come visit and see the possibilities for year round food 
production which would provide healthy food and jobs in the 
local food industry.

    We rented a 1600 square foot space in Grayslake, but 
quickly found that the rent and utilities were more than our 
founding not-for-profit could afford and quickly ran out of our 
start-up funding we had secured. Kevin and I then formed Grow 
Well Farms LLC and started growing microgreens to sell to 
restaurants and at farmers markets to generate sales/income.

    We have found creative ways to grow our not-for-profit and 
business--networking, using social media and through 
collaboration. Making connections and always accepting every 
opportunity to share our vision and missions have been key. For 
example--An Executive MBA team from Loyola University wrote a 
business plan for Grow Well Farms' microgreen business as their 
final project. An Eagle Scout contacted Growing Healthy People 
to see if there was a project he could do for veterans. Kevin 
taught him how to build aquaponics systems out of IBC totes. 
Scouts under this leadership built three systems for us. 
Through this relationship, we found a home for the systems and 
Grow Well Farms' business in a greenhouse at the Lake Forest 
Country Day School which we lease for 3 years for $1. In 
exchange, we offer educational opportunities to their students 
and grow healthy microgreens for their snack program.

    This year we have been awarded a significant grant from the 
Abbott Fund to build a nutrition hub in two greenhouses they 
previously donated to two middle schools in Waukegan and North 
Chicago. We installed aquaponics, aeroponic towers and 
hydroponics systems. It is exciting to see the students who may 
eat a can of frosting for breakfast or dumpster dive for meals, 
now eating nutritious organic microgreens grown in their new 
systems or growing lettuces to donate to food pantries or 
community houses in their neighborhood all while learning 
technologies and how to grow food.

    We have just been awarded a grant from the Grainger 
Foundation to refurbish a greenhouse at Bowen Park in Waukegan. 
This greenhouse will be turned into an Urban Ag Lab with the 
Waukegan Parks and Recreation team programming classes around 
growing and cooking healthy food.

    We also received a grant from the Liberty Prairie 
Foundation to fund a veteran intern for 120 hours @ $15 who we 
hope to hire for the Bowen Park project.

    In addition, Grow Well Farms is partnering with JAMEKS Farm 
in Wadsworth for a 2018 SARE (Sustainable Agriculture Research 
and Education) Farmer/Rancher Grant to develop two quackaponics 
systems--using pond water from JAMEKS Farm ducks to create 
nutrients to grow produce using the same technology as 
aquaponics.

    It is all a start and this year Kevin and I have actually 
received some income for all the many hours we have put in to 
Growing Healthy People and Grow Well Farms.

    The future? Kevin and I believe in urban agriculture and 
that growing food using alternative growing methods is the 
future. Healthy, local food can be grown almost anywhere and 
urban agriculture is a multi-million dollar industry. Jobs can 
be created in food production. For Growing Healthy People we 
would like to add greenhouse projects and continue to grow Grow 
Well Farms. We want to find ways to train veterans on local 
food production and alternative growing methods. We believe 
there are other collaborations we can develop. We would like to 
find a space where we can create a headquarters and educational 
center. We know there are old buildings or warehouses available 
in low income areas that could be used for this purpose. We 
want to find a way make this happen--whether through 
partnerships, grants or loans. Additionally, we are looking for 
a place to set up a greenhouse I purchased with a $5,000 grant 
I was awarded from the Farmer Veteran Coalition. We have been 
trying to locate a place to set this up and while we have 
gotten close--beit at a school or other property--thus far we 
have not found the location.

    When I accepted the opportunity to be a part of his field 
event, I was asked to think about ways Congress could help 
entrepreneurs. I have looked at the Small Business 
Administration website and found it to be a great resource for 
entrepreneurs. I know there are opportunities through the USDA. 
Why haven't I pursued opportunities? The only reason I can 
think of is that I thought I wouldn't qualify for any loans or 
grants. When you are starting out, you may not have income to 
support a loan. Interestingly, I made sure that I owned 51% of 
my business entities so they would qualify as both woman-owned 
and veteran-owned--just in case I would go for a loan. In 
addition, I suspect that government agencies like the SBA and 
USDA seem too large, too intimidating for an entrepreneur to 
navigate. Perhaps these are my own misconceptions. That is one 
reason I am delighted to be here for this conversation. I'm 
interested to share my experiences, hear from others and find 
ways for entrepreneurs to tap into governmental opportunities 
that exist or can be developed to spur on small business. Thank 
you again for the opportunity to be here today.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
